U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


MARSHALL ISLANDS DEVELOPMENT BANK,
 REPUBLIC OF THE MARSHALL ISLANDS

             REPORT NO. 99-I-952
              SEPTEMBER 1999
                                                                      N-IN-MAR-003-99-R
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL,
                                    Washington, DC. 20240

                                                                     SEP 3w99.9


Mr. Donald Capelle
Chairman, Board of Directors
Marshall Islands Development Bank
Post Office Box 1048
Republic of the Marshall Islands
Majuro, MH 96960

Subject: Audit Report on the Marshall Islands Development Bank, Republic of the
         Marshall Islands (No. 99-I-952)

Dear Mr. Capelle:

This report presents the results of our review of the operations of the Marshall Islands
Development Bank of the Republic of the Marshall Islands. The objective of our audit was
to determine whether (1) Compact Section 111 and 211 funds were used efficiently and
effectively in accordance with the intent of the Compact and (2) loans and interest
receivables were properly accounted for and effectively collected. The audit was requested
by the U.S. Ambassador to the Republic of the Marshall Islands.

We concluded that the Marshall Islands Development Bank did not comply with provisions
of the Compact of Free Association, Federal and Republic laws, Bank policies and
guidelines, and operating procedures applicable to the Bank’s operations and the use of funds
provided by the United States. Specifically, we found that:

      - The Bank used funds provided by the Compact to issue commercial loans to
businesses and government entities without adequate assurances that the purposes of the
loans conformed to official economic development plans and that the loans could be and
would be repaid.

      - Although the Bank made good faith attempts to collect its delinquent loans, the Bank
did not (1) use all available collection methods; (2) prepare, collect, and maintain loan
records necessary to ensure that loan collateral was protected and that loan files were
complete and current; and (3) ensure that management fees were charged on all properties
the Bank managed for delinquent borrowers.

      - The Bank combined loans funded by the United States under the former Trust
Territories Economic Development Loan Fund with loans funded by the Republic.
Therefore, the Economic Development Loan Fund loans lost their identity as United States-
sourced funds.
These conditions occurred because the Bank (1) issued loans, according to the Bank’s
Chairman of the Board and the Managing Director, based on political considerations and
without adequate financial analyses of the projects’ financial viability and the borrowers’
ability to repay; (2) was reluctant to seize loan collateral and believed that cooperative efforts
with the borrowers would resolve delinquency problems; and (3) did not ensure that loan
files included the history of Bank actions on the loans and all required documents because
loan personnel were not adequately trained and supervised and devoted significant time to
managing returned property. Further, the Bank did not collect management fees because
Bank officials had not realized the time and related costs involved in managing smaller
properties on behalf of delinquent borrowers. Finally, the Bank did not follow requirements
to separately account for and control Economic Development Loan Fund accounts because
they were not aware of the requirements when the Bank assumed outstanding accounts from
its predecessor bank.

As a result, potential Bank revenue from outstanding loans totaling $6.8 million appears to
be uncollectible, and loans of another $6.9 million may become uncollectible. The
unavailability of this $13.7 million has prevented the Bank from issuing new commercial
loans from Compact funds since July 1996 and from meeting its legally mandated purpose
to “promote the development and expansion of the economy of the Marshall Islands.” Also,
because of ineffective collection enforcement, additional loans totaling $838,000 appear to
be uncollectible, and loans of another $3.3 million may become uncollectible. The Bank also
lost an estimated $7,500 by not charging management fees. Further, (1) payments totaling
$214,938 received on Economic Development Loan Fund loans were deposited into the
Bank’s local revenue accounts and (2) loan balances and loan payments totaling $167,950
were transferred to and/or combined with loans from other financing sources and were not
available for new loans to be made pursuant to the established purposes of the Economic
Development Loan Fund. We made 11 recommendations to you, as the Chairman of the
Bank’s Board of Directors, to correct the deficiencies identified.

Based on your August 27, 1999, response (Appendix 3) to the draft report, we consider
Recommendations A.4, B.4, and B.5 resolved and implemented and Recommendations A.2,
A.3, B.l, and B.3 resolved but not implemented. Accordingly, the unimplemented
recommendations will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation. Also based on the response, we consider
Recommendations C.l and C.2 unresolved and request additional information for
Recommendations A.1 and B.2 (see Appendix 4).

Section 5(a) of the Inspector General Act (Public Law 95-452, as amended) requires the
Office of Inspector General to list this report in its semiannual report to the Congress.
Therefore, please provide a response, as required by Public Law 97-357, to this report by
November 10, 1999. The response should be addressed to our Pacific Field Office,
4 15 Chalan San Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam 96911. The response
should provide the information requested in Appendix 4.
We appreciate the assistance provided by the staff and management of the Development
Bank during the conduct of our audit.

                                           Sincerely,
                                       n         _,m


                                           Earl E. Devaney
                                           Inspector General

cc: President, Republic of the Marshall Islands
    Managing Director, Marshall Islands Development Bank
                                                  CONTENTS
                                                                                                                         Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
        OBJECTIVE AND SCOPE .........................................                                                     2
        PRIOR AUDIT COVERAGE .......................................                                                      3

FINDLNGS AND RECOMMENDATIONS ................................. .4

        A. ISSUANCE OF COMMERCIAL LOANS .......................... 4
        B. COLLECTION OF DELINQUENT LOANS ........................ 14
        C. ECONOMIC DEVELOPMENT LOAN FUND ..................... .21

APPENDICES

        1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . , . . , . . , . . , . . . .24
        2. MARSHALL ISLANDS DEVELOPMENT BANK OUTSTANDING
           LOANS BY U.S. FUNDING SOURCES AS OF NOVEMBER 30,199s , .25
        3. MARSHALL ISLANDS DEVELOPMENT BANK RESPONSE . _ . . . . . .26
        4. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . , . . . . . . . . . 33
t
i
i

I                                        INTRODUCTION

    BACKGROUND

    The Republic of the Marshall Islands Public Law 1988- 1 (codified as Title 10, Chapter 8, of
    the Marshall Islands Revised Code) established the Marshall Islands Development Bank
    effective March 17, 1988. Section 8 10( 1) of the Revised Code states, “The functions of the
    Bank shall be to promote the development and expansion of the economy of the Marshall
    Islands in order to improve the standard of living of the people by adopting strategies that
    will develop and mobilize the human, natural, capital, technical entrepreneurial and other
    resources of the country.” Section 811 of the Revised Code states that the Bank has the
    power to provide financial assistance “by extending loans to enterprises; by guaranteeing. . .
    the payment of money . . . [and] by making equity investments in enterprises.” Section 8 11
    also states that the Bank has the power to provide nonfinancial assistance to enterprises
    operating in the Marshall Islands “by taking the initiative in the identification of investment
    opportunities, the undertaking of feasibility studies, the promotion and formation of new
    enterprises, as well as the expansion of existing enterprises with the objective of enlarging
    the economic base of the country” and “by managing or taking part in the management of,
    supervision, or conduct of the business of enterprises.”

    Title 10, Sections 807 and 808, of the Revised Code states that the Cabinet of the Republic
    ofthe Marshall Islands will appoint the members ofthe Bank’s Board of Directors, nominate
    the Chairman of the Board, and appoint the Bank’s Managing Director. Title 10 of the
    Revised Code was amended in 1993 to reduce the “exceptional degree of direction”’ that the
    Republic of the Marshall Islands Government provided over the Bank’s operations by
    removing the requirements that (1) the Bank’s Board should “serve at the pleasure of the
    Cabinet,” (2) amendments of the Bank’s By-Laws should be approved by the Cabinet, and
    (3) the Bank’s policies and guidelines also should be approved by the Cabinet.

    As of November 30, 1998, the Bank had received funding of about $17.5 million from the
    United States for economic loan programs. These funds were primarily from Sections 111
    and 2 11 of the Compact of Free Association between the United States and the Republic of
    the Marshall Islands, which became effective on October 2 1, 1986. Although the Marshall
    Islands Development Authority initially had responsibility for $10 million provided for the


    ‘The 1993 amendments were based on a 1992 report entitled “Institutional Strengthening of the Marshall
    Islands Development Bank,” issued by an Australian planning and training consultant firm. The report
    stated, “The MIDB [Marshall Islands Development Bank] Act allows for an exceptional degree of direction
    by [the] Government [of the Marshall Islands]. Government intervention is pervasive and dominates the
    Bank’s lending program. At the same time, the relationship with Government inhibits MIDB from exercising
    its developmental role and its commercial judgement. MIDB has no real prospect of developing as a
    [development financing institution] unless it is allowed to operate at arms length from Government. The
    MIDB Board has approved revisions to the MIDB Act drafted by the consultants. The revisions provide the
    necessary framework for MIDB’s development along the lines of other [development fmancing institutions].
    No change to the By-laws is considered necessary. It is recommended that: the MIDB Act be amended as
    a pre-requisite to any real reform of the Bank. ”
Compact Section 111 Investment Development Fund, the Bank’s enabling legislation
transferred responsibility for these funds to the Bank. Additionally, in 1992 the Republic
initially loaned, and later granted to the Bank as contributed capital, $5 million received from
revenue bonds that were secured by Compact Section 211 funds. The Bank funded its
operating expenses from interest earnings and loan origination fees.

The single audit report of the Marshall Islands Development Bank for fiscal year 1997 stated
that, as of December 3 1, 1997, the Bank had loans receivable totaling $17.8 million and a
related allowance for doubtful accounts of $12 million, which resulted in net loans receivable
of $5.8 million. The single audit report also stated that the Bank had contributed capital of
$17.5 million and an accumulated unreserved retained earnings deficit of $10.4 million.
Finally, the Bank reported calendar year 1997 interest income of $1 million and an operating
loss of $722,000, which was an increase from the calendar year 1996 operating loss of
$5 17,000.

The Bank’s fiscal year 1999 operating budget totaled $649,518, including $92,416 for the
salaries and related costs of six Bank employees who were assigned to two loan programs
administered by the Majuro Office, Rural Development, U.S. Department of Agriculture.
As of November 30, 1998, the Bank had 16 employees, excluding the employees at Rural
Development, as follows: 1 secretary, 7 loan officers, 6 accounting personnel, a Finance
Manager, and a Managing Director.

OBJECTIVE AND SCOPE
The objective of the audit was to determine whether (1) Compact Section 111 and 2 11 funds
were used efficiently and effectively in accordance with the intent of the Compact and (2)
loans and interest receivables were properly accounted for and effectively collected. The
scope of our review initially included all Compact-funded loans issued and administered
during fiscal years 1997 and 1998 but was expanded to include loans made from Economic
Development Loan Fund monies provided by the Trust Territory of the Pacific Islands and
the entire portfolio of commercial loans managed and/or issued by the Bank from Compact
funds. These changes were made because the Bank’s loan records did not adequately
summarize the history and status of loans during our initial audit period and because
Republic government decisions made during the years immediately following the Bank’s
creation in 1988 negatively impacted the current availability of funds for commercial
development loans.

To obtain information on the processing, administration, and collection of loans, we
interviewed officials and/or reviewed loan records at the Majuro offices of the Marshall
Islands Development Bank, Ministry of Foreign Affairs, and Auditor General; the United
States Embassy; an independent public accounting firm; the Majuro Office, Rural
Development, U.S. Department of Agriculture; and two attorneys in private practice who had
performed services for the Bank. We also interviewed officials of the Western Pacific
Region, Rural Development, U.S. Department of Agriculture, located at Hagatna, Guam.



                                               2
Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated the system of internal controls related to the financial and
operational management of the Marshall Islands Development Bank to the extent that we
considered necessary to accomplish the audit objective. Based on our review, we identified
internal control weaknesses in the areas of issuing commercial loans, accounting for
outstanding loans, protecting loan collateral, collecting delinquent loans, and complying with
a special accounting agreement. These weaknesses are discussed in the Findings and
Recommendations section of this report. Our recommendations, if implemented, should
improve the internal controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the U.S. General Accounting Office, the Auditor General of
the Republic of the Marshall Islands, nor the Office of Inspector General has issued any audit
reports on the Marshall Islands Development Bank. However, an independent public
accounting firm issued single audit reports on the Republic of the Marshall Islands, which
included the Bank’s financial statements and the results of audit tests on the Bank’s
operations, for fiscal years 1995,1996, and 1997. The single audit report for fiscal year 1997
identified six financial statement findings. Specifically, the report stated that (1) the Bank’s
accounting was based on the source of funding rather than on the type of loan by industry;
(2) minutes for 7 of 14 Board meetings were not documented as approved by the Board; (3)
initial credit checks and quality control procedures were not performed on all prospective
loan customers and their requested loan amounts; (4) subsidiary loan ledgers did not facilitate
accounting and reporting on the Bank’s loan portfolio; (5) loans receivable were not
periodically reviewed for collectibility and assessed for loan losses; and (6) interest income
and receivables were not updated on a regular basis during the year, resulting in an erroneous
$136,605 year-end journal entry. We found that these conditions still existed during our
review.
               FINDINGS AND RECOMMENDATIONS
A. ISSUANCE OF COMMERCIAL LOANS

The Marshall Islands Development Bank used funds provided by the Compact of Free
Association to issue commercial loans to businesses and government entities without
adequate assurances that the purposes of the loans were in conformance with official
economic development plans and that the loans could be and would be repaid. These
conditions were contrary to the Compact’s terms and to the Bank’s enabling legislation and
operating procedures. These deficiencies occurred because the Bank issued loans, according
to the Bank’s Chairman of the Board and the Managing Director, based on political
considerations and without adequate financial analyses ofthe projects’ financial viability and
the borrowers’ ability to repay. As a result, as ofNovember 30,1998, principal and accrued
interest on delinquent loans totaling almost $6.8 million appear to be uncollectible, and an
additional $6.9 million may become uncollectible (see Appendix 1). In addition, the
unavailability of the $13.7 million represented by these delinquent loans has prevented the
Bank from issuing new commercial loans from Compact funds since July 1996 and from
meeting its legally mandated purpose to “promote the development and expansion of the
economy of the Marshall Islands.”

Loan Policy

Section 21 l(b) of the Compact of Free Association states, “The annual expenditure of the
grant amounts specified for the capital account in Section 211 (a) . . . shall be in accordance
with the official overall economic development plans provided by those Governments [ofthe
Compact States] and concurred in by the Government of the United States.” In addition, the
implementing agreement for Compact funds provided under Section 111 (c) of U.S. Public
Law 99-239, Article II, paragraph 6, states, “The Fund is intended to further close economic
and commercial relations between the United States and the Marshall Islands, to encourage
investment and productive participation in economic development in the Marshall Islands
by citizens and commercial enterprises of the United States and the Marshall Islands,
particularly through joint ventures between United States and Marshall Islands citizens and
commercial enterprises, . . . and to encourage the private sector employment and training of
citizens of the Marshall Islands and the productive utilization of the natural resources,
manpower resources, and other resources of the Marshall Islands.”

Title 10, Section 8 10(l), of the Marshall Islands Revised Code states, “The [Marshall Islands
Development] Bank’s activities shall be designed to strengthen the nation’s economic base,
increase employment and production, improve standards of housing, promote exports, and
reduce the country’s dependence on imports and foreign aid.” Section 8 1 O(2) of the Revised
Code states, “In carrying out its functions the Bank shall have due regard for the general
economic policies and plans of the Government of the Marshall Islands and to the general
objectives of the Investment Development Fund.” Section 8 12 of the Revised Code further
states, “The [Bank’s] Policies and Guidelines will be made public and will be strictly adhered
to.”

                                              4
Paragraph 5 of the Bank’s Policies and Guidelines (adopted by the Republic’s Cabinet on
April 13, 1989) states, “As a development finance institution, the Bank will carry out its
operations according to sound commercial, banking practice.” Paragraph 7 of the Guidelines
states, “The Bank will provide financial assistance to those projects, which on the basis of
its own analysis, are assessed as technically feasible, economically justifiable, financially
viable and profitable.” Further, Paragraph 10 ofthe Guidelines states, “In order to reduce the
concentration of risk, the Bank will seek, as far as possible, to diversify its portfolio by
sectors of operation and by avoiding inappropriately large investment in any one project. As
a general rule, no loan or guarantee provided by the Bank to any single borrower, or equity
participation in any single enterprise shall exceed ten percent (10%) in aggregate of the net
worth of the Bank, however, this general rule will be exercised at the discretion of the
Board.”

Political Considerations

Section 16 of the Constitution of the Republic of the Marshall Islands, which became
effective on May 1, 1979, states, “The Government of the Republic of the Marshall Islands
recognizes the right of the people to responsible and ethical government and the obligation
to take every step reasonable and necessary to conduct government in accordance with a
comprehensive code of ethics.” The Republic’s Ethics in Government Act of 1993 (codified
at Title 3, Chapter 17, of the Marshall Islands Revised Code) became effective on
September 2 1, 1993. Title 3, Section 1704(5), of the Revised Code states, “Public officials
and Government employees shall not use public office for private gain.” Section 1704( 12)
states, “Public officials and Government employees shall endeavor to avoid any actions
creating the appearance that they are violating the law or ethical standards set forth in this
Chapter.” Prior to September 1993, the Republic did not have a comprehensive code of
ethics.

The Bank had 48 commercial loans (originally totaling $18.5 million) that were funded by
Compact Section 111 and 21 l(b) funds and administered by the Bank. Of those 48 loans,
we reviewed a judgmental sample of 21 loans2 (originally totaling $14 million) that had
outstanding balances, including accrued interest, totaling $13.6 million as of November 30,
1998. We evaluated the status of the 2 1 loans and the financial/economic basis for approval
of the loans, including the purpose of each loan as it related to the two 5-year official
economic development plans issued by the Republic for the periods during which the loans
were approved. Of the 2 1 loans reviewed, 1 loan was current, 18 loans were delinquent an
average of 46.3 months, and 2 loans (which had been delinquent) were exchanged for
common stock of the borrowing organization.



2The 21 loans that we reviewed included 2 loans made to Air Marshall Islands (a government-owned airline)
that were subsequently exchanged for common stock of the airline. If the two loans had not been exchanged
for common stock, they would have had outstanding balances totaling $4.3 million as of November 30, 1998.
Because the Bank’s audited financial statements for 1997 reported the airline’s stock as having no value, we
included the $4.3 million that would have been outstanding on the loans as “Lost Revenues” in Table 1 and
as “Unrealized Revenues” in Appendix 1.

                                                     5
Based on our review of documents in the loan files and discussions about the loans with the
Bank’s Chairman of the Board and Managing Director, we noted, for 17 loans (11 to
business organizations and 6 to government entities), that they had been issued as follows:
 11 loans (5 loans to businesses and 6 to government entities) were issued based on the direct
or indirect direction from government officials, 3 loans were issued to businesses owned by
relatives of senior-level government officials, and 3 loans were issued to businesses owned
by elected government officials. At least 3 of the 17 loans were made for purposes that were
not clearly within the scope and intent of the Republic’s 5-year economic development plans.
The Chairman of the Board and the Managing Director stated that “the Bank issued some
loans based on political direction and influence” and that such loans “may not have been
made under normal circumstances.” As a result of issuing loans without performing
thorough financial analyses, requiring additional collateral or other guarantees, and
complying with the Bank’s lending guidelines, the Bank, as ofNovember 30, 1998, appears
to have lost $6,62 1,645 on seven of the loans and is at risk of losing an additional $6,442,610
in potential revenues on three other loans. In addition, for six of the seven remaining loans,
revenues were also lost or at risk because the Bank’s inadequate collection efforts allowed
the loans to become delinquent (see “Collection Practices” in Finding B). The 17 loans and
lost or potentially lost revenues are detailed in Table 1.


                                          Table 1. Questionable Loans

                                                         Original      Principal       Nov. 1998                       Potential
                                        Date Loan         Loan         Amount         Outstanding         Lost            Lost
     Purpose of Loan                     Signed          Amount        P a i d          Balance         Revenues       Revenues
Loans to Businesses:
Rental Housing                           11124189        $631,025       $15,913         $615,112             0          0
Hotel                                    01/12/90         123,174       120,385           126,235 *         0           0
Fishing                                  1 O/02/90        132,000              0         208,02 1           0           0
Entertainment Complex                    IO/l l/90        3 14,029             0         439,680             0
Oflice Building                          01/04/91       4,913,549              0       6,032,124               %6,032,12:
Fishing                                  05127192         450,000              0         649,193     $349,19!            0
Manufacturing                            07/24/92         101,754         6,33 1          101,442            0           0
Entertainment Complex                    06/09/93       1,103,769        23,658        1,218,346             0           0
Fishing                                  06128f93         188,000              0         254,323      254,323            0
Fishing                                  07/09/93          65,474              0           84,360      84,360            0
Rental Housing                           01/20/94         232.976                        257,539
         Subtotal                                      $8.255.750      $166.281:      $9,986,375    $687.87: $6.032.12:

Loans to Government Related Entities:
Fishing Partnership               06/l 5/88            $1 ,OOO,OOO            0       $1,835,467       $1,557,677               0
Fishing Partnership               0 l/27/89                178,331      $81,050          145,795          123,595               0
Air Marshall Islands              03/15/91                933,321             0               **        1,350,809               0

Air
Development
    Marshall Islands
              Authority                  04/O
                                         1 O/20/93
                                              l/92      2,000,000
                                                          185,000            0    $222,851
                                                                                         **    2,901,6880               %222,85;
MajurdGovernment                         06113195         208,522       18.270     219.660              0                187,635
       Subtotal                                        $ 4 . 5 0 5 . 1 7 4 299.320 $2.4237773 $5,933,769                $410,486

        Total                                         $12.760.924 $ 2 6 5 . 6 0 7 $ 1 2 . 4 1 0 . 1 4 8 $6.621.645 $6,442,610

*On May 30, 1996, the Bank combined this loan with the $97,994 balance of an earlier delinquent loan for the same hotel project
**On May 3 1, 1995, the Bank exchanged the hvo loans for common stock of the airline. The amounts shown as “Lost Revenues” are the
amounts that would have been outstanding, including accrued interest, if the loans had not been exchanged for stock.




                                                                6
The details of 7 of the 17 loans listed in Table 1 are discussed as follows:

        - Air Marshall Islands. One loan issued by the Bank on March 15, 1991, was for
$850,0003 and another loan issued on April 1, 1992, was for $2 million to provide
operational funding to Air Marshall Islands, a 100 percent Republic-owned and
Republic-controlled corporation. Neither of the Republic’s two 5-year economic
development plans made reference to providing economic development funding for the
establishment of air service, either within the Republic or internationally. According to the
Bank’s Managing Director, the Cabinet directed that the Bank lend the money to the airline
for “operating funds.” Additionally, the loans were approved by the Cabinet, although that
function was normally performed by the Bank’s Board of Directors. The airline did not
make any payments on the loans, and on May 3 1,1995, the Bank4 exchanged the two unpaid
loans (which were more than 3 years delinquent at the time and had outstanding balances
totaling $3,488,000, including accrued interest) for common stock in the airline. The Bank’s
 1997 audited financial statements reported that the stock had no market value, and the Bank’s
Managing Director described the stock as “worthless.” Based on the airline’s financial
statements, we determined that the airline had not made a profit in at least 8 years’ and, as
of September 30, 1997, had an accumulated deficit of $13.4 million. In addition, all of the
airline’s stock was held by government entities. We also noted that although the Bank
owned about 30 percent of the airline’s outstanding stock, the Bank did not have a
representative on the airline’s Board of Directors, which was controlled by the Republic’s
government, Based on the foregoing, we believe that the Bank may have lost revenues of
$4,252,497 represented by the original loan amounts and the accrued interest through
November 30,1998.

        - Office Building Project. On December 27, 1990, the Bank’s Board of Directors
approved a loan application from a Marshallese/Korean partnership for $2.3 million to build
a 5-story office building near the Republic’s Capitol Building, although this type of project
was not included in the Republic’s two 5-year economic development plans. The Bank
initially issued a loan of $850,000 on January 4, 1991, then increased the loan amount by
$1,450,000 on February 26, 1991; by $962,525 on June 14, 1991; by $1,262,391 on
December 7, 1993; and by $388,633 on December 31, 1994. The final loan amount was
$4,9 13,549. As ofNovember 30,1998, the borrower had not made any payments against the
loan principal, and the outstanding balance, including accrued interest, was $6,032,124.

The initial loan and the subsequent loan increases were approved by the Republic’s Cabinet,
even though the Bank’s Managing Director, in a May 20, 1991, letter to the Marshallese

3The amount of this loan was subsequently increased to $933,321 by the capitalization of accrued interest
totaling $83,321.

4The exchange with the Bank was initiated in August 1994 by the airline’s Board of Directors, which
included the Republic’s now-deceased President and three Cabinet ministers. The exchange reduced the
airline’s outstanding debt by $3.5 million and increased its equity by the same amount.

‘The airline reported a fiscal year 1997 operating loss of $2.9 million, with total operating revenues of
$7.7 million.

                                                    7
partner, stated that the Bank could not approve the partnership’s May 8, 1991, “request for
additional funding, because the Board has already exceeded its given authority.” In response
to a subsequent request for an increase of the loan amount, the Bank’s Managing Director
prepared a discussion paper for the November 1, 199 1, meeting of the Bank’s Board of
Directors. In the discussion paper, the Managing Director stated, “In the case [of this loan],
it is unfortunate that [the Marshall Islands Development Bank] never had the option to
significantly spread its risk. . . . if the additional loan is approved, then some 36% of Bank
assets will be at risk . . . . Such an inordinate risk is not normally acceptable to any lending
institution - responsible either to a Government or private stockholders - if it aspires to be
an ongoing and commercially oriented organization with a worthwhile future contribution
to make.” As stated previously, the Bank’s lending guidelines limited individual loans to
10 percent of the Bank’s assets. As of December 3 1, 1997, this one loan represented about
28 percent of the Bank’s total contributed capital. Both the Bank’s Chairman of the Board
and the Managing Director stated that this loan was based on “political direction and
influence” and “may not have been made under normal circumstances.”

On December 3 1,1994, the Marshallese partner, whose partnership included relatives ofthe
Republic’s recently deceased President, assumed the entire loan and ownership of the
building. On August 3, 1995, the borrower signed a management agreement that “let the
Bank manage. . . the ‘Building’ for as long as is required to pay off the . . . loan.” However,
the Bank’s records indicated that the building’s revenues were insufficient to pay offthe loan
and that outstanding interest on the loan had increased by $647,667 from August 1, 1995, to
November 30, 1998. As of November 30, 1998, more than 7 years after receiving the loan,
the borrower had not made any payments on the loan principal.

        - Fishing and Entertainment Projects. During the period of September 199 1 through
September 1993, the Bank released a total of $1,0 17,503 for four loans to the same business
entity. An October 11, 1990, loan of $314,029 was for the renovation of an
apartment/restaurant/bar building. A May 27, 1992, loan of $450,000 was for the purchase
of a fishing boat. A June 28,1993, loan of $188,000 was for the purchase of a second fishing
boat. A July 9, 1993, loan of $65,474 was to finance commercial fishing operations. One
of the two owners of the business was a relative of a former Republic President. Although
the purposes of three of the four loans were to establish a commercial fishing business, which
met the objectives of the Republic’s 5-year economic development plans, according to the
Bank’s Senior Loan Officer and correspondence in the loan files, the borrowers did not have
commercial fishing experience. The Bank’s Chairman of the Board and the Managing
Director both stated that these loans resulted from “political direction and influence” and
“may not have been made under normal circumstances.” As of November 30, 1998, the
borrowers had not made any payments on the principal amounts, and the outstanding balance,
including accrued interest, was $1,427,556.

In summary, the Bank’s Chairman of the Board and the Managing Director both stated that
the Republic’s Cabinet had direct control over the Bank’s operations until August 1993,
when the Bank’s enabling legislation was amended to remove the Cabinet’s direct authority
over the Bank (see footnote 1). The two Bank officials also confirmed that decisions about
major loans had been made either directly or indirectly by the Cabinet and did not always

                                               8
appear to be based on the borrowers’ ability to repay the loans. The officials also stated that,
even after passage of legislation reducing the Cabinet’s control over the Bank’s operations,
the Bank was subject to some political influence. We noted, for example, that five of the six
Bank Directors were government officials. Therefore, to preclude the potential for political
influence, we believe that the Bank’s Board of Directors should be composed of a more equal
mixture of government officials and private business representatives. In addition, the Board
should be given the sole authority for approving loans and should be required to clearly
document any financial risks involved in the issuance of loans.

Financial Analyses

Regarding methods of safeguarding the Bank’s interests, Paragraph 20 ofthe Bank’s Policies
and Guidelines states that the Bank “may require the applicant for a loan, guarantee or equity
participation that is over $15,000 to provide a business plan or feasibility study indicating
the technical, economic and financial feasibility [of the business]“; Paragraph 24 states that
the Bank “shall use its best endeavors to ensure that the financial requirement for the
completion and commissioning of the project is covered, including, if appropriate, allowance
for cost overruns”; and Paragraph 25 states that the “Bank shall secure its loans or guarantees
by appropriate collateral coverage and guarantees from its borrowers in accordance with
sound banking practices.” Also, Paragraph 34 states, “The Bank shall decide on a scheme
for loan repayment which shall be incorporated into the loan agreement. The repayment
period of a loan, including a grace period, where appropriate, will be determined taking into
account: . _ . the Bank’s own interest to recover principal in as a short a time as possible for
the optimum use of its funds to maximize the turnover of its portfolio.” In addition,
Section 3.2.4 of the Bank’s Operating Manual states:

      “Financial analysis” refers to the assessment of each and every potential
      borrower who may come to the Bank for assistance . . . . The OBJECTIVES of
      financial analysis are:

          To judge whether an existing enterprise is solvent. . . . To assess the ability
      of the business to prosper and meet its present commitments, PLUS any new
      [Bank] loan commitments when they fall due. . . . To make some judgement of
      the net (or residual) value of assets that may be available to the Bank as
      collateral for any loan . . . .

      The ultimate purpose of astute financial analysis is to ensure REALISTIC
      BUDGETING which, in turn, will demonstrate whether or not a project has
      prospects of being commercially viable and thus may warrant a Bank loan. In
      compiling Bank budgets lending staff must also:

          Apply their knowledge of other similar projects. . . . Make use of any
      industry research data that may be available, and certainly judge carefully such
      things as site/location and management potential.



                                               9
Despite these requirements and guidelines, the files for only 8 of the 21 commercial loans
we reviewed contained financial analyses. These analyses were of varying degrees of
complexity and all appeared (based on the absence of Bank-related comments or notations)
to have been submitted by the loan applicants. In addition, the eight analyses included what
we believe were either unrealistic assumptions or analytical information that was too general
to apply to the specific loan requests. Further, none of the 2 1 loan files included a record of
a separate financial analysis by the Bank or a Bank critique of the analyses submitted by the
applicants. According to Bank personnel, the Bank did not always perform thorough credit
and financial analyses of prospective commercial borrowers and did not document reviews
that were performed because management did not require these actions to be taken and had
not provided personnel adequate training and supervision to accomplish these tasks. As a
result, the Bank’s management did not appear to have had access to the information needed
to evaluate the prospects for repayment of proposed loans. As a consequence of the Bank
not conducting adequate financial analyses to determine the feasibility of proposed projects
and the credit worthiness of loan applicants, delinquent loans totaling $176,256 appeared to
be uncollectible and additional loans totaling $43 1,004 were also at risk of becoming
uncollectible. For example:

           - On October 22, 1992, the Bank made the final disbursement for a loan of
$160,632 from Compact funds to a construction company to buy construction equipment and
tools necessary to perform on a $400,000 contract. The Bank had also made a loan of
$398,755 on February 6, 1991, secured by the same contract, to the same company from
Republic funds. According to the Bank’s Managing Director, the borrower could not repay
the second loan because the contract was canceled when the Republic canceled the overall
project. However, we question whether the Bank should have made loans to the company
in excess of its total projected revenue of $400,000 from the construction contract. The
Bank’s file for the second loan contained no financial analysis or other documented analysis
that addressed this issue. Although the borrower had paid $29,216 on the principal of the
Compact loan, the last such payment was made on September 1,1993. As of November 30,
1998, the loan was 63 months delinquent, had an outstanding balance of $176,256, including
accrued interest, and, in our opinion, appeared to be uncollectible.

           - On November 13, 1991, the Bank made a loan of $346,970 to a business
operating a small hotel for the purpose of building additional rooms and upgrading the
hotel’s restaurant and bar. On August 27, 1992, the Bank made another loan of $351,739 to
the business to significantly upgrade the construction quality of the hotel improvements.
However, the loan file did not include any indication that the Bank had performed its own
financial analysis on either loan but had relied on the borrower’s financial projections.
Although the first loan appeared reasonable, the Bank did not perform an analysis to
determine whether the business could repay the second loan from the same revenues. The
second loan increased the monthly loan payment from $3,833 to $7,5 18. This larger monthly
payment was reduced by the Bank on January 3 1, 1996, when it reduced its interest rates to
6.5 percent and, for “a limited time” (which was still in effect as ofNovember 1998), reduced
the monthly payment amount to $5,000. However, as of November 30,1998, the borrower
had not made any principal payments on the second loan and owed $43 1,004, including
accrued interest. In our opinion, this potential revenue is at risk of loss.

                                              10
       - During the period of November 1989 to August 1997, the Bank made two loans6
totaling $63 1,025 to an individual to build 10 rental houses. The only financial projections
in the loan file were based on what, in our opinion, were unreasonable assumptions by the
borrower, such as that all 10 houses would be occupied 100 percent of the time, the project
would be completed without any unforseen delays, and there would be no unexpected
construction or operating costs. There was no indication in the file that the loan officer or
another Bank official questioned the assumptions, nor was there a financial projection that
used assumptions that we believe were more appropriate. Although the borrower assigned
all rent collections to the Bank when the Bank renegotiated the loan in August 1997, on11
14 months later, on November 30, 1998, the loan was 6 months delinquent and had an
outstanding balance of $615,112.’

Recommendations

We recommend that the Chairman of the Board of Directors, Marshall Islands Development
Bank:

       1. Request the Board of Directors to revise the Bank’s Policies and Guidelines to
require that development loans be granted in conformance with the applicable goals and
objectives contained in the Republic’s 5-year economic development plans as a condition
of approval.

       2. Submit a formal request to the Republic’s Cabinet to amend the Bank’s enabling
legislation so that the number of government officials is reduced and the number of private
business representatives appointed to the Bank’s Board of Directors is increased and to
require formal acknowledgment and approval by the Bank’s Board of Directors of any loan
applications subject to possible political influence. In that regard, written statements should
be required by voting Board members that they had no conflicts of interest and that they were
not aware of any financial risks related to politically influenced loans.

       3. Submit a formal request to the Republic’s Cabinet to require that the Board of
Directors of Air Marshall Islands include at least one member who represents the Marshall
Islands Development Bank.

       4. Ensure that the Bank’s Managing Director provides training in financial analysis
to the Bank’s Senior Loan Officer, requires that independent financial analyses be performed
for all loan applications, and reviews and formally approves such financial analyses.




6The loans consisted of the original loan of $474,169, an additional loan amount of $64,65 1, and interest
capitalizations of $18,590 and $73,615.

‘Although we consider the outstanding balance of $615,112 on this loan to be at risk of loss, we did not
include it in Appendix 1 as part of the monetary impact for Finding A because it is included in the discussion
and the monetary impact for Finding B.

                                                      11
Marshall Islands Development Bank Response and Office of Inspector
General Reply

In the August 27,1999, response (Appendix 3) to the draft report from the Bank’s Chairman
of the Board, the Bank concurred with the four recommendations. Based on the response,
we consider Recommendation 4 resolved and implemented and Recommendations 2 and 3
resolved but not implemented and request additional information for Recommendation 1 (see
Appendix 4).

Additional Comments on Finding

The Bank stated that information included in one of the three examples of the Bank’s
inadequate credit analysis (see “Financial Analysis” in this report) was “inaccurate.” The
Bank also provided information on its position that the loan was adequately secured and that
substantial loan payments had been made. Further, the Bank stated that “most ofwhat is said
about non compliance with provisions of the Compact . . . [and with Federal and Republic
laws] . . . would have been avoided if the Bank had been given more autonomy and
independent [sic] from the start.” The Bank further stated that “the Board feels that these
[instances ofJ non compliance could have been minimized, or avoided, if the IDF
[Investment Development Fund] Advisory Board, established [by the Compact] had taken
a more active role in its capacity as an Advisory Board to the fund.” The Bank then stated
that the only advice the Advisory Board provided was “for a loan to fund a joint venture
fishing project” and that the “project was a failure.” Further, the Bank noted that the
President of the Republic of the Marshall Islands had sent a letter dated April 26, 1993, to
the U.S. Ambassador to the Republic appointing the Republic’s representatives to the
Advisory Board and requesting appointment of the United States representatives to the
Board. The Bank further stated, “Until now no one knows whether the appointments were
made or not, as there has not been a meeting of that [Advisory] Board.”

The statement that information in one example in the draft was “inaccurate” is incorrect.
However, we have revised the example to clarify that (1) we were referring to the date of the
final disbursement on the loan (October 22, 1992), not the date on which the loan was
signed, and (2) the loan was 63 months delinquent as of November 30, 1998, not as of
September 1, 1993.

Regarding the Bank’s statement that two additional contracts were used to secure the
repayment of the two loans to the borrower, this information was not in the Compact-funded
loan file provided to us during the audit, nor was it provided in response to our inquiries for
information concerning the Republic-funded loan. Additionally, we did not review the files
of Republic-funded loans because the loans did not involve United States-sourced funds.
Based on the information provided with the response, we have deleted reference to the
delinquency ofthe Republic-funded loan. However, Bank officials did not mention any other
contracts during audit discussions on this loan. If these contracts were used to justify the
approval of the Compact-funded loan, this information should have been included in the


                                              12
Compact-funded loan file and referred to as part of a financial analysis of the loan, which
was not performed.

Regarding the financial status of the Compact-funded loan and the Republic-funded loan, the
Bank listed seven payments, totaling $100,396.17, with the inference that these payments
were applied to the Compact-funded loan. However, the Bank’s accounting records showed
that only two payments, totaling $8,185.62, of the seven payments were applied to the
Compact-funded loan. Consequently, the other five payments, totaling $92,2 10.55, were
apparently applied to the Republic-funded loan. Further, based on the Bank’s accounting
records as ofNovember 30, 1998, the Compact-funded loan’s outstanding principal balance
was $13 1,416, which, when subtracted from the initial loan amount of $160,632, results in
a total of $29,216 in principal having been paid on this loan. In addition, according to the
Bank’s accounting records as of March 12, 1999, the most recent payment the Bank applied
to the Compact-funded loan was made on September 1, 1993. Therefore, we still consider
the remaining balance of $176,256, including accrued interest, to be potentially uncollectible.

We have addressed the issue of the Bank’s autonomy through Recommendation 2.

Regarding the Investment Development Fund Advisory Board, we do not believe that the
Advisory Board had or would have had a significant impact on the issues discussed in the
report. According to the Compact, the Advisory Board’s duties and responsibilities include
providing “advice and guidance” on the evaluation of proposals and recipients of
distributions from the Investment Development Fund and assisting in other programs
designed to attract investment in the Republic. Also, as noted in the Bank’s response, the
only advice apparently given by the Board resulted in a “project that was a failure” with
related losses of $1.7 million in principal and interest. Further, regarding the appointment
of United States representatives to the Advisory Board, during our audit, we contacted
United States, Republic, and private entities in our efforts to obtain records relating to the
actions of the Advisory Board and to determine what actions had been taken to appoint
United States representatives to the Board in 1993 or subsequent to 1993. We were
unsuccessful in obtaining any documentation other than the Republic President’s April 26,
1993, letter referred to in the response. However, by December 3 1, 1993 (the end of the
Bank’s fiscal year), the Advisory Board would have had few decisions to make on loans
because most available funds were committed. As of that date, the Investment Development
Fund had 3 1 loans, totaling $12.3 million (including unpaid interest), and of that number,
17 (55 percent) loans were delinquent.




                                              13
B. COLLECTION OF DELINQUENT LOANS

Although the Marshall Islands Development Bank made good faith attempts, it did not
collect all delinquent loan amounts. The Bank’s operating procedures and borrowers’ loan
documents specify the responsibilities of the Bank and the borrowers for protecting collateral
and collecting delinquent loans. However, the Bank did not (1) use all available collection
methods; (2) prepare, collect, and maintain loan records necessary to ensure that loan
collateral was protected and that loan files were complete and current; and (3) ensure that
management fees were charged to delinquent borrowers for all properties the Bank managed.
Also, the Bank’s Managing Director said that the Bank was reluctant to seize loan collateral
and believed that cooperative efforts with the borrowers would resolve delinquency
problems. Further, Bank personnel stated that they were inadequately trained and supervised
and that they had to expend too much time managing returned property. Finally,
management fees were not generally collected because Bank officials had not realized the
time and related costs involved in managing smaller properties. As a result, delinquent loans
totaling $629,63 1 appear to be uncollectible, and loans totaling another $3.3 million may
become uncollectible because of inadequate collection enforcement. Additionally,
delinquent loans totaling $208,02 1 appear to be uncollectible because the pledged property
was not insured, and potential management fees of about $7,500 had not been collected.
(The monetary impact of the preceding amounts is presented in Appendix 1.) Further, we
believe that the Bank’s lack of action to aggressively collect delinquent loans may serve as
an inducement for other borrowers not to repay their loans or not to repay their loans timely.

Collection Practices

Paragraph 25 of the Bank’s Policies and Guidelines states, “The Bank shall secure its loans
or guarantees by appropriate collateral coverage and guarantees from its borrowers in
accordance with sound banking practices.” Section 3.3.2 of the Bank’s Operating Manual
states:

      When arrears do occur, it is most important to quickly identify why, and then
      complete appropriate and timely action to return the account to current status
      e.g. obtain the repayment/s, reschedule the repayment/s, rehabilitate the project,
      or sell off assets. The monitoring and control of arrears, plus the education of
      borrowers in good credit habits, is a most important part of the role of all Bank
      lending staff. . . . Arrears may be caused by the client/project when borrowers
      will not pay or cannot pay.

For client-caused arrears, the Manual continues:

      Borrowers who will not pay are those who have sufficient funds to meet the
      agreed repayments, but choose not to pay. In all such cases, prompt and firm
      action needs to be taken in order to show the borrower that the Bank means to
      enforce the loan agreement. . . . This type of borrower does not warrant any
      leniency from the Bank . . . and after two reminders and one warning letter the
      Bank should proceed to realize upon its securities.

                                              14
Further, Section 3.3.2.4 of the Manual states:

       The accepted basis for classifying the status of delinquent accounts is: . . . Two
       Months up to Three Months - third contact MUST be a Bank visit to the project
       to undertake a full review and report back, Over Three Months - generally
       regarded as hard-core arrears with deep seated problems needing careful,
       consistent, and positive follow-up, Over Twelve Months - non-performing loans
       where debt recovery is most definitely in doubt. . . . Only careful and constant
       attention to arrears monitoring will maintain proper control of the Bank’s loan
       portfolio, protect [the Bank’s] capital, and allow the Bank to continue on with
       its primary role as a major catalyst for development in [the Republic of the
       Marshall Islands].

In addition, loan agreements between borrowers and the Bank specify that upon default by
the borrowers, the Bank can “take possession of the [loan] collateral or render it
unusable; . . Sell or dispose of collateral by sale and pursuant to the law; . . . Foreclose on
any real property or appropriate personal property in accordance with law; . . . and Pursue
any and all other remedies available under law or equity to enforce the term of this Loan
Agreement.”

To evaluate the Bank’s collection practices, we selected a judgmental sample of 115 of the
Bank’s 509 recorded loans (see Appendix 2), including loans from each category of the
Bank’s Federally funded loan programs. The 115 loans had original loan amounts totaling
$15.5 million and, as of November 30,1998, consisted of 23 paid-off loans and of 92 active
loans with outstanding balances totaling $18.7 million, including accrued interest. Of the
92 outstanding loans, 49 loans, totaling $18.2 million as of November 30, 1998, were
delinquent (32 loans delinquent 1 year or more and 17 loans delinquent less than 1 year).
Based on our review of the loan payment history and the age of the loans, we believe that the
Bank will not be able to collect amounts due for 34 of the 49 delinquent loans. (The 34 loans
consisted of 3 1’ of the 32 loans that were delinquent 1 year or more and 3 of the 17 loans that
were delinquent less than 1 year.) However, in Finding A, we questioned the Bank’s ability
to collect 8 of these 34 loans, with outstanding balances totaling $8,970,836. Therefore, to
avoid duplicate counting, we included in the monetary impact reported in Appendix 1 only
the remaining 26 loans, with uncollectible or potentially uncollectible balances totaling
$3,896,575, as shown in Table 2.




‘One of the 32 loans was excluded because it appeared to be collectible, even though it had been delinquent
for 22 months.

                                                    15
                 Table 2. Delinquent Loans With Lost or Potential Lost Revenues

                                                                  Original     Nov. 1998                   Potential
                                             Loans      Loans       Loan      Outstanding       Lost          Lost
         Source and Tvoe of Loan           Q
                                           Reviewed
                                              u e s t i o n e d   Amount        Balances     Revenues      Revenues
Compact 11 I- Investment Development           16          7    $3,304,378     $3,749,829     $439,680    $2,671,126
Compact 211 - Commercial                        5          3       622,697        782,227             0      433,004
Compact 2 I1 - Housing                         34          4        60,201         55,674        13,475       42,199
Trust Territories - Economic Development       20         12       439,417        297,091      176,476       120,615
USDA - Housing Preservation                    36          0              0              0            0              0
USDA - Rural Development                       >          9
        Total                                 115         2     $4.426.69:    $4.884.82:     $629.63:     $3.266,944



    We reviewed the files for 18 nonhousing loans that were among the 49 delinquent loans and
    determined that the file for only 1 of the 18 loans included any comments explaining why the
    loan was delinquent (the file stated “management weaknesses”). In addition, none of the files
    for the 49 delinquent loans included a financial analysis of the delinquent borrower, a
    collection plan, or documentation that the Bank had attempted to seize loan collateral or had
    initiated court action. We asked two attorneys who had worked with the Bank to collect
    delinquent loans whether the Bank could successfully seize property and/or take other court
    action to collect delinquent accounts. The attorneys stated that the enforcement of the
    security agreements would likely be upheld in the Republic’s courts but added that the Bank
    had never filed a court action to enforce the agreements. The Bank’s Managing Director also
    stated that the Bank had not taken legal action against delinquent borrowers. By not using
    ail available legal means to collect delinquent loans, the Bank appears to have lost $629,63 1
    and placed another $3,266,944 at risk of loss. For example:

           - On January 22, 1999, the Bank’s payment agreement (dated January 20, 1998) with
    one delinquent borrower was, in effect, overturned as a result of a decision by the Marshall
    Island’s High Court to assign the borrower’s revenues to another creditor. The borrower had
    originally obtained the loan on October 11, 1990, and, as of November 30, 1998, was
    77 months delinquent and had an outstanding balance of $439,680, including accrued
    interest. In addition, the borrower had never made a payment on the loan principal. The
    Bank’s Managing Director stated that the Bank had inadvertently not tiled its payment
    agreement with the Court. Therefore, the Bank’s claim was not recognized by the Court and
    was overturned when another creditor brought suit against the borrower. In our opinion, the
    Bank would have increased the probability of recovering all or most of the $439,680
    outstanding balance if it had taken more aggressive actions, such as seizing the secured
    property.

           - By August 1997, the Bank had loaned $63 1,025 (including capitalized interest) to an
    individual to build 10 rental houses (see “Financial Analyses” in Finding A). Although the
    borrower assigned all rent collections to the Bank when the loan was renegotiated in August
     1997, only 15 months later, by November 30,1998, the loan was 6 months delinquent. Prior
    to August 1997, rents from four of the rental houses had been assigned to the Bank, but the
    Bank experienced difficulty in collecting the rents because the borrower or the borrower’s
    representative would collect the money from tenants and not remit the money to the Bank.


                                                         16
AS of February 1, 1999, only 4 of the 10 houses were rented at a total rental income of
$3,000 per month, which was $2,500 per month less than the $5,500 monthly loan payment
amount. In addition, the Bank attempted to convince the borrower to voluntarily transfer
management of the property to the Bank but had not been successful, although it continued
to seek to take over the project. Further, based on our site inspection, the wooden houses
appeared to be deteriorating and in need of renovation to be desirable rentals. As of
November 30, 1998, the loan balance of $615,112 was outstanding.

Loan Records

Paragraph 5 of the Bank’s Policies and Guidelines directs the Bank to “carry out its
operations according to sound commercial, banking practice.” Section 3.3.6 of the Bank’s
Operating Manual states that the Bank “has two major information systems: the
computerized accounting system and the loans filing system comprised of a separate file for
each loan account.” Paragraph 3.3.6.2 of the Manual states, “Given the importance of loan
files, it is absolutely essential that each one must always be a complete record of all that
occurs with a given borrower/loan. . . . The loan file should be a record of every single thing
that happens.” Further, Paragraph 30 of the Bank’s Policies and Guidelines states that “the
Bank shall require loan applicants to produce insurance policies . . . for . . . real property
improvements,” and Subparagraph 30(d) states that “where insurance is required, the
premiums shall be paid in full by the borrowers as the standard practice of the Bank.”
Further, Title 10, Section 13(4), of the Marshall Islands Revised Code states, “In the
preparation of the [Bank’s] financial statements, adequate and proper provisions shall be
made for bad and doubtful debts”

       File Documentation. The Bank did not include sufficient documentation in the loan
files to support that property used as loan collateral was adequately protected and that
required loan processing procedures and collection actions were performed. Based on our
review of 21 commercial loan files and 70 housing loan files,’ we determined that none of
the 91 files included documents providing (1) the entire payment history, delinquency status,
and aging of the loans; (2) narrative comments on major loan actions (such as loan
amendments and meetings with delinquent borrowers); and (3) evidence of supervisory
reviews. In addition, the loan files for neither the 21 commercial loans nor the 34 Compact
Section 211 housing loans included documents showing that current insurance coverage
existed on the property used for loan collateral. According to Bank loan officers,
documentation was not included because they had not received adequate followup training
on retaining documentation on insurance coverage and the loan files were not subject to
routine supervisory monitoring. The Senior Loan Officer also stated that much of his time
was devoted to managing returned properties. According to the Bank’s Managing Director,
many of the housing borrowers could not afford insurance, and the Bank was therefore
attempting to include funds to pay for the cost of insurance in the initial amounts of future

%e did not perform this review on the 4 U .S . Department of Agriculture Rural Development loans in our
sample because the funds on each of these loans had not been disbursed at the time of our audit and on the
20 Trust Territories Economic Development loans in our sample because these loans were issued by the
Bank’s predecessor bank and did not relate to the Bank’s current operations.

                                                    17
loans. As a result, the Bank lost $208,021 on at least one loan because loan collateral was
not insured.

Specifically, although the Chattel Mortgage Security Agreement used by the Bank required
that borrowers carry insurance on collateral used as surety for their bank loans, a 50-foot
fishing boat with fishing equipment, which was partially financed by a Bank loan, was not
insured and was considered a total loss when it burned about 10 months after the borrower
obtained the loan. The Bank’s Managing Director stated that during this period, smaller
boats could not get insurance in the Republic and that the Bank had required the borrower
to include as collateral for this loan a small hotel that was also used as collateral for a
separate $137,000 hotel loan. Although we could not determine the value of the mostly
wooden hotel, we determined, based on our site visit, that the hotel was not in operation and
needed extensive repairs before any rooms could be rented. As of November 30, 1998, the
borrower had not made any payments on the loan and owed a total of $208,02 1, including
accrued interest. We believe that the Bank should more adequately protect its interests by
requiring alternate unpledged collateral for the loans.

       Computerized Accounting System. The Bank did not operate a computerized
accounting system that was adequate to effectively administer its outstanding loans. A 1997
consultant study funded by the Asian Development Bank discussed the need to correct
deficiencies in the Bank’s computerized accounting system and made recommendations for
improvement. Bank officials said that the recommendations were not implemented because
the Bank’s management did not agree with the conclusions of the study. However, the
Bank’s Managing Director and its Finance Manager agreed that the Bank’s computerized
accounting system was old and needed improvements. As a result, Bank personnel and
management and Bank Directors could not readily determine the status of the Bank’s loan
portfolio to help ensure that personnel initiated appropriate collection actions on delinquent
loans. Examples of the Bank’s ineffective system of loan administration are as follows:

      - The Bank’s accounting computer equipment and its local area network configuration
were inadequate to provide the processing power needed to summarize the payment history
of any loan more than 2 years old, thereby excluding most of the approximately 1,000
(Federal and Republic) loan files, which may include more than 8 years of transactions.
Therefore, a loan’s complete history could not be provided without extensive manual review.

       - The Bank was unable to locate its computerized or manual accounting ledger files
for transactions on the 9 outstanding Compact Section 2 11 Bond Proceeds Fund commercial
loans for calendar year 1994; 9 outstanding Compact Section 111 Investment Development
Fund commercial loans for a 6-month period in 1990; and the 54 Trust Territories Economic
Development Loan Fund loans for 1992,1993, and 1995.

      - The Bank relied on its external auditors to perform loan account agings and to adjust
loan allowance accounts on an annual basis instead of using the computerized system,
performing these reviews periodically during the year, and then providing this periodic
delinquency information to its Board of Directors.


                                             18
Property Management

Paragraph 5 of the Bank’s Policies and Guidelines states, “As a development finance
institution, the Bank will carry out its operations according to sound commercial, banking
practice.” The Bank’s Senior Loan Officer stated that he was assigned management of the
rental properties that had been turned over to the Bank and that managing the properties took
a “significant portion” of his time. In our opinion, the Bank should charge the borrowers a
percentage of revenues collected from the managed properties to help recover some of the
personnel costs incurred. In addition, since the Senior Loan Officer was the lead official
responsible for collecting delinquent commercial loans, we believe that the Bank should
consider assigning another staff member to manage the returned properties.

As of November 30, 1998, the Bank had entered into management agreements with six
delinquent borrowers of either Compact Section 111 Investment Development Loan Funds
or former Trust Territories Economic Development Loan Funds to manage the properties that
were used to secure the loans until the loans were paid off. With the Bank collecting
revenues from the properties and using the revenues to make payments on the delinquent
loans, the number of loan delinquencies was decreasing at the time of our audit. However,
for five of the six agreements, the Bank had not required the borrowers to reimburse the
Bank for its property management costs. We estimated that using a management fee of
10 percent of collected revenues, the Bank could have collected management fees of about
$7,500 during 1998, which would have defrayed some of the Bank’s operating expenses.

Recommendations

We recommend that the Chairman of the Board of Directors, Marshall Islands Development
Bank, ensure that the Bank’s Managing Director:

       1. Enforces the loan provisions for seizing loan collateral for loans that are
significantly delinquent.

      2. Provides refresher training in loan file maintenance to all loan personnel and
amends the Bank’s Policies and Guidelines to require regular supervisory reviews of files on
loans that are delinquent.

       3. Assigns property management responsibilities to Bank personnel other than loan
officers who are responsible for collecting delinquent loans.

       4. Performs an assessment of the Bank’s computerized systems and develops a plan
of action to upgrade the systems to meet the identified needs. Any upgrades should include
correcting errors in the loan files (both automated and manual) and providing training on the
upgraded systems.

      5. Prepares standard wording to be used in all Bank management agreements with
borrowers which specifies that monthly charges (such as apercentage of monthly collections)


                                             19
should be assessed for property management and amends existing management agreements
to include such wording.

Marshall Islands Development Bank Response and Office of Inspector
General Reply

In the August 27,1999, response (Appendix 3) to the draft report from the Bank’s Chairman
of the Board, the Bank concurred with the five recommendations. Based on the response,
we consider Recommendations 4 and 5 resolved and implemented and Recommendations 1
and 3 resolved but not implemented and request additional information for
Recommendation 2 (see Appendix 4).




                                           20
C. ECONOMIC DEVELOPMENT LOAN FUND

The Marshall Islands Development Bank combined loans funded by the United States, under
the former Trust Territories Economic Development Loan program, with loans funded by the
Republic, which resulted in United States-funded loans losing their identity. According to
the “Agreement By The Federated States of Micronesia, Republic of the Marshall Islands,
Republic of Palau, and Trust Territory of the Pacific Islands To Amend the EDLF [Economic
Development Loan Fund] Plan,” which became effective on October 24, 1985, and
transferred responsibility for the Economic Development Loan Fund from the Trust Territory
of the Pacific Islands to the Republic of the Marshall Islands, the Republic agreed to
separately account for Economic Development Loan Funds in a revolving fknd. The Bank’s
Finance Manager stated that he was not aware of these requirements when the Bank assumed
the outstanding Economic Development Loan Fund accounts from its predecessor, the
Marshall Islands National Development Bank. As a result, (1) loan payments totaling
$214,938 were deposited into the Bank’s local revenue accounts and (2) loan accounts
totaling $167,950 were transferred to the borrowers’ other related loans that were financed
from other sources (see Appendix 1). As a result, these funds were not available for loans
that were in compliance with the established purposes of the Economic Development Loan
Fund.

U.S. Public Law 88-487 (Pacific Islands Trust Territory - Economic and Social
Development), dated August 22, 1964, established a development fund grant for the Trust
Territory of the Pacific Islands. The amount of the fund was increased on March 21, 1972,
by U.S. Public Law 92-257 (Trust Territory of the Pacific Islands) to a total of $5 million.
Public Law 92-257 was codified in Title 48, Sections 1688 through 1693, of the U.S. Code
Annotated. Section 1689 states that the use of the grant depends on the government of the
Trust Territory preparing a plan that “shall provide among other things for a revolving fund
to make loans or to guarantee loans to private enterprise.” Section 1690 established basic
loan and guarantee requirements, and Section 1691 states that the “plan provided for in
section 1689 of this title shall set forth such fiscal control and accounting procedures as may
be necessary to assure proper disbursement, repayment, and accounting for such funds.” The
Agreement reiterated the statements in Sections 1689 through 1691.

Loan Payments

The Bank did not account for and report on loans financed by the United States-funded
Economic Development Loan Fund in a separate revolving fund,” as required by Federal
law. Instead, the Bank included at least 54 of these loans with other loans financed by
Republic funds. According to the Bank’s Financial Manager, when the 54 loans were
transferred to the Bank in 1989, the Bank’s management did not realize that these loans had
special accounting requirements. Therefore, the Bank did not establish a separate revolving
fund for the loans. The oldest listing of these loans available from the Bank, dated


“A “revolving fund” is an “account that is repeatedly expended, replenished, and then expended again.”
(Barron’s Dictionary of Accounting Terms)

                                                 21
December 3 1, 1989, identified 54 loans with total outstanding balances of almost $1.3
million and 6 loans with zero balances. Of the 54 loans, we reviewed 20 loans with balances
totaling $687,476 as of December 31, 1989, and determined that through November 30,
1998, the Bank had collected a total of $2 14,938 on these loans but had accounted for these
collections as Republic revenues and not as Economic Development Loan Fund revenues.
As a result, the Bank could not ensure that the $214,938 was or would be used for loans in
compliance with the requirements of the Economic Development Loan Fund program, as
required by the Agreement and United States law.

Transferred Accounts

In two .instances, the Bank transferred borrowers’ Economic Development Loan Fund
account balances to the same borrowers’ accounts under other funds, which was contrary to
the requirements set forth in the “Agreement.” According to the Bank’s Financial Manager,
the loan balances were transferred to assist in collection efforts, and the Bank’s management
did not realize that these loans should have been accounted for separately. Details of the
transferred loans were as follows:

      - On September 13,1994, the Bank closed out an Economic Development Loan Fund
account totaling $46,038 by writing off $23,019 and transferring the remaining $23,019 to
the borrower’s loan from Republic funds. According to the Bank’s records, the borrower
paid $3,779 on the portion of the loan that was transferred to the Republic’s loan fund.

       - On May 30, 1996, the Bank transferred another borrower’s entire Economic
Development Loan Fund account balance of $12 1,9 12 ($97,994 in principal and $23,9 18 in
accrued interest) to the borrower’s loan account in the Compact Section 111 Investment
Development Fund. Subsequent to the transfer, the borrower paid an estimated $18,597 on
this loan.

As a result, of these two transfers, the Economic Development Loan Fund lost $167,950
($46,03 8 and $12 1,9 12) that the Bank could not lend for Economic Development Loan Fund
purposes.

Recommendations

We recommend that the Chairman of the Board of Directors, Marshall Islands Development
Bank, ensure that the Bank’s Managing Director:

       1. Establishes a separate revolving fund to account for loans made with Economic
Development Loan Funds; computes all payments collected from borrowers since 1988; and
deposits these funds, as well as all future Loan Fund payments, to this fund.

       2. Returns the two loan balances related to the two transfers to the revolving loan fund
established in accordance with Recommendation 1; computes all payments collected from
borrowers since 1988; and deposits these funds, as well as all future Loan Fund payments,
to the revolving fund.

                                              22
Marshall Islands Development Bank Response and Office of Inspector
General Reply

In the August 27, 1999, response (Appendix 3) to the draft report from the Bank’s Chairman
of the Board, the Bank said that its independent auditors “at no time” had “brought up” the
combining of the former Trust Territories Economic Development Loan program with loans
funded by the Republic “as an issue of concern to be corrected” and that “further reviews”
of the Economic Loan Fund were needed before the two recommendations could be
implemented. Based on the response, we consider Recommendations 1 and 2 unresolved
(see Appendix 4).

Based on our review of actions taken by the Bank’s Board of Directors and other information
relating to outstanding loans assumed by the Bank at the time of its establishment, we
determined that certain loans labeled by the Bank as “old loans” were Federally funded
Economic Development loans. Our discussions with Bank officials and the Bank’s
independent auditors and our subsequent review of working papers from a prior single audit
of the Bank confirmed that the Bank had erroneously reported the Economic Development
loans as Republic-funded loans. The Bank subsequently located and provided us with a list
of Economic Development loans as of December 3 1, 1989, which we then provided to the
Bank’s independent auditors. The independent auditors’ resident representative in Majuro,
who had performed the most recent Bank audits, said that when his firm began auditing the
Bank, there was no indication in the Bank’s records that the subject loans were anything but
Republic loans. The auditors’ representative stated that this issue would be addressed in the
calendar year 1998 audit, which was in process at the time of our discussion.




                                             23
                                                                       APPENDIX 1


              CLASSIFICATION OF MONETARY AMOUNTS*


                                                         Potential     Funds To Be
                                         Unrealized     Additional        Put To
                 Finding Area            Revenues        Revenues       Better Use

A. Issuance of Commercial Loans
      Political Considerations          $6,62 1,645      $6,442,6 10
      Financial Analyses                    176,256         43 1,004

B. Collection of Delinquent Accounts
      Collection Practices                   629,63 1     3,266,944
      Loan Records                           208,021
      Property Management                                     7,500

C. Economic Development Loan Fund
     Loan Payments                                                       $214,938
     Transferred Accounts                                                 167.950

      Total                              $7.635.553     $10.148,058      $382,888




*All amounts represent Federal finds.



                                        24
                                                                                                                APPENDIX 2


               MARSHALL ISLANDS DEVELOPMENT BANK
             OUTSTANDING LOANS BY U.S. FUNDING SOURCES
                      AS OF NOVEMBER 30,1998

                                                                                           Total                   Total
                                                                      Number              Amount                  Amount
       Funding Source and Bank Fund Title                             L
                                                                      ofo a n s           Loaned                   Owed*

Compact of Free Association:
 Section 111, Investment Development Fund                                  30          $11,770,484             $13,781,100
 Section 2 11, Bond Proceeds Fund:
   Commercial Loans                                                         8               905,696                1,034,419
   Housing Loans                                                          130             2,531,156                1,292,3 15

Trust Territory of the Pacific Islands:
  Economic Development Loan Fund                                                           1,273,751**               417,343

U.S. Department of Agriculture:
 Housing Preservation Grant Fund                                                            492,939                  122,896
 Rural Development Fund                                                                      56.000                   56,000***

         Sub-Total                                                                     $17.030.026             S 16,704,073

Compact of Free Association Fund Loans
Converted to Air Marshall Islands Stock:
  Section 111, Investment Development Fund                                                 $850,000              $1,350,809****
  Section 2 11, Bond Proceeds Fund                                                        2,000,000               2,901,688****

         Total                                                                         $19.880.026             $20.956,570


*The current amounts owed were not available from the Bank’s accounting system and are based on our audit calculations.
**The number of loans and loan amounts are based on the recorded outstanding balances as of December 3 1,1989.
***These loans had not been finalized as ofNovember 30, 1998, and no payments had been made on them.
****These amounts include delinquent principal and interest that were converted into stock effective December3 1,1994, plus estimated
Interest from Ianuary 1, 1995, through November 30, 1998.




                                                                25
                                                                                      APPENDIX 3
                                                                                      Page 1 of 7

                      Marshall Islands Development Bank
                                   Post Office Box 1048
                                   Majuro, Republic of the Marshall Islands
                                                  MH 96960

Board of Directors:

Donald Capelle Chairman                                                          Ali correspondence
Joel Philip    Vice-Chairman                                                     to be addressed to:
Clyde Heine    Director
Kinja Andrike  Director                                                       MANAGING DIRECTOR
Amon Tibon     Managing Director                        Tel.: (692) 6X-3230/5270 Fax: (692) 6253309




    August 27, 1999

    Mr. Robert J. Williams
    Acting Inspector General
    United States Department of the Interior
    Office of the Inspector General
    Washington D.C. 20240

    Subject: General comments on draft audit report-Assignment
             No. N-IN-MAR-003-99-R)

    Dear Mr. Williams;

    During the past few days, the Board of Directors of the Bank has met several
    times to review the draft audit report resulting from the review of the
    operation of the Marshal Islands Development Bank by your office, and I
    want to inform you that the Board agrees with almost all of the
    recommendations that have been proposed and actions will be taken
    accordingly;

    In addition to our responses to the recommendations, I am also submitting,
    on behalf of the Board, the following comments.

    1. Paragraph 2 on page 10 states that on October 22, 1992 (the correct date
       is May 26, 1992), the Bank had issued an additional loan of $160,632.00
       to a construction company, which had previously made a loan of
       $398,755.00 in February of 1991 to perform on a $400,000.00 contract.
       The draft audit is questioning whether the bank should have made the
       loans in excess of its projected revenue from the construction contract.
       This finding is inaccurate!



                                               26
                                                                         APPENDIX 3
                                                                         Page 2 of 7




   Actually, the company had two other contracts that were also being used
   to secure the repayment of the two loans. One of them was to perform
   plumbing work at the Capital Complex for $126,658.00 and the other one
  was with National Telecommunication Authority, worth $71,408.00. The
  total of the three contracts exceeded the total amount of the two loans.

   The draft audit also claims that the first loan was already delinquent
   when the final drawdown on the $160,632.00 loan was made. It states
   that although the borrower had paid $29,216.00 on the principal of the
   Compact loan, the last such payment was made on September 1, 1993,
   and the loan was 62 months delinquent. If you count the number of
   months from February 1991 to September 1993 there are only 30 months
   during that period. How can the Ioan be delinquent for 62 months?

   The borrower had paid over One Hundred Thousand Dollars before
   September 1, 1993, and not $29,216.00, as claimed in the draft audit on
   page 10. Listed below are some of the payments that were made prior to
   September 1, 1993.

      1.   October 02, 1992  Receipt No:    4420          $64,000.00
      2.   October 15, 1992                 4464             1,890.58
      3.   November 5,1992                  4546             8,966.29
      4.    December 14,1992                4698            12,066.41
      5.   February 18, 1993                4927             5,287.27
      6.   May 18,1993                       5261            4,969.9 1
      7.   July 5, 1993                     5438             3,215.71
                                                          $100,393.17

   Under the Loan Agreement, the borrower is only required to pay
   $5,450.00 a month but during the period up to September 1,1999, the
   borrower had paid more than One Hundred Thousand Dollars and
   couldn’t have been delinquent for 62 months as claimed in the audit.

2. On the overall draft itself, the Board would like to comment that although
   most of what is said about non compliance with the provisions of the
   Compact of Free Association, Federal and Republic Laws could be true,
   the Board feels that most of the non compliance would have been
   avoided if the Bank had been given more autonomy and independent
   from the start.

                                      2
                                     27
                                                                     APPENDIX 3
                                                                     Page 3 of 7




Under the original Act that established the Bank, the business of the Bank
was under the control of the Board of Directors but received directions
from the Cabinet. By the time the Act was amended, giving the Board
more autonomy and independent, most of the Bank’s fund under the
Compact was already been used for projects that the RMI Government
felt were important for the development of the Marshall Islands economy.

Although the conclusion that the Bank did not comply with the
provisions of the Compact of Free Association, Federal and Republic
laws, Bank policies and guidelines may be true, the Board feels that these
non compliance could have been minimized, or avoided, if the IDF
Advisory Board, established under Article III, Section 2(a) of the
“Agreement between the Government of the Republic of the Marshall
Islands and the Government of the United States of America Regarding
the Investment Development Fund of the Marshall Islands pursuant to
Section 1 l(c) of the United States Public Law 99-239” had taken a more
active role in its capacity as an Advisory Board to the fund.

Under the Agreement, the President of the Marshall Islands and the
President of the United States of America were to appoint representatives
from their respective countries, in addition to the U.S Ambassador to the
Marshall Islands, to constitute the Board.

The only advise given by the IDF Advisor Board was for a loan to fund a
joint venture fishing project between the Marshall Islands Development
Authority and a U.S. citizen in the amount of $1,000,000.00 with another
$1 ,OOO.OOO placed in the Bank of New York as security for the loan. We
all know that the project was a failure, benefiting only the U.S side, and
at the end, the Bank had to accept a three hundred thousand dollars
($300,000.00) settlement and forgive close to two million dollars in
principal and interest to avoid losing everything.

When the term of the first IDF Advisory Board was expired, a letter from
former President Kabua , dated April 26, 1993, was sent to the U.S
Ambassador David Field notifying him of the new appointees
representing the RMI Government. The President also asked the
Ambassador to request the President of the United States to appoint the
U.S Government representatives to join him (the Ambassador) to
complete the IDF Advisory Board. Until now no one knows whether the

                                  3

                                  28
                                                                    APPENDIX 3
                                                                    Page 4 of 7


   appointments were made or not, as there has not been a meeting of that
   Board.

If you have question concerning our responses or comments, please contact
Amon Tibon, Managing Director, at telephone (692) 6254.527 or fax (692)
6253309.

                                        Sincerely,




copy: file




                                    4
                                   29
                                                                                       APPENDIX 3

                      Marshall Islands Develoyment f%-%f ’
                                             Post Office Box 1048
                                    Majuro, Republic of the Marsha!] Islands
                                                  MH 96960

Board of Directors:

Donald Capelle Chairman                                                           All correspondence
Joel Philip    Vice-Chairman                                                      lo be addresse,S t.9’
Clyde Heme     DirW3Clr
Kinja Andrike  Direclor                                                       MANAGING DIRECTOR
Amon Tibon     Mariaging Director                        Tei.: (692) 6%3230/5270 Fax: (692) 6254309


1 September 1999

Mr. Peter J. Scharwark, Jr.,
Senior Auditor
Pacific Office
Guam
Dear Mr. Scharwark, Jr.
Please find our comments and responses to Mr. Robert J. Williams with
respect to the draft audit report of the Marshall Islands Development
Bank. Total number of pages including this one is seven (7).

Please let us know if we have to re-fax any missing pages.
Thank you.




                                               30
                                                                       APPENDIX 3
                                                                       Page 6 of 7




RESPONSES TO RECOMMENDATIONS ON (A) ISSUANCE OF
COMMERCIAL LOANS.

Recommendations:

1. The Board of Directors of the Bank will make sure that the Policies and
   Guidelines will be revised to require that development loans, funded
   under the Compact funding, are in conformance with the applicable goals
   and objectives contained in the Republic’s 5year economic plans as a
   condition of approval.

2. The Board of Directors of the Bank will submit a formal request to the
   Cabinet to amend the bank’s enabling legislation so that the number of
   government officials is reduced and the number of private business
   representatives appointed to the Bank’s Board of Directors is increased
   and to require formal acknowledgement and approval by the Bank’s
   Board of Directors of any loan applications subject to possible political
   influence. Written statements would be required by voting members of
   the Board that they had no conflict of interest and that they were not
   aware of any financial risk related to politically influenced loans.

   The request will be submitted before the January 2000 session.
   Management will be responsible for this.

3. As recommended, the Board of Directors of the Bank will submit a
   formal request to the Cabinet to have at least one member from the
   Bank’s Board to represent the Bank on the Board of Directors of the Air
   Marshall Islands Inc.. This will be done before the end of the year, and
   management will also be responsible for it.

4. Management will comply with recommendation from now on.


RESPONSES TO THE RECOMMENDATIONS ON (B)
COLLECTION OF DELINQUENT LOANS.

Recommendations:

1, The Board of Directors will ensure that the Managing Director enforces

                                      1
                                      31
                                                                        APPENDIX 3
                                                                        Page 7 of 7



   the loan provisions for seizing loan collateral for loans that are
   significantly delinquent. In order to do this more effectively, the Bank’s
   legal counsel will be asked to revise the loan documents so that the
   seizing of the loan collateral does not require a lot of court proceedings.
   This recommendation will be carried out as soon as possible and will be
   the responsibility of the Managing Director.

2. This recommendations has already been in place as it required by the
   Board of Directors of the Bank, and amendments to the Policies and
   Guidelines will be made to require regular supervisory reviews of files on
   loans that are delinquent.

3. As recommended, the bank will hire or assign someone to manage all
   properties seized or managed by the bank. This should be implemented
   sometimes in January, 2000.

4. Management agrees that Bank needs a new or improved computerized
   system. Management has discussed the subject matter with the Computer
   Specialist working with the Bank of Marshall Islands, and the actual
   work has already been started. The new system should be in place before
   the end of the year.

5. The Bank has already implemented this recommendation and will make
   sure all management agreements contain languages that would specify
   the amount of fee the Bank would charge a borrower for services
   provided.


RESPONSES TO RECOMMENDATION ON (C) ECONOMIC
DEVELOPMENT LOAN FUND

Recommendations:

Comments: Before these two recommendations can be implemented, the
Bank needs further reviews of the Economic Loan Fund that was managed
by the former Trust Territory of the Pacific Islands. Since 1991 the Bank is
being audited by an independent auditor, as required by the Marshall Islands
Development Bank Act, and at no time this subject matter has ever being
brought up as an issue of concern to be corrected.


                                       2
                                      32
                                                                             APPENDIX 4
                                                                               Page 1 of 2

      STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                       Action Required

         A.1             Management         Provide the target date and the title of the
                         concurs;           official responsible for revising the
                         additional         Bank’s Policies and Guidelines to require
                         information        that Compact-funded development loans
                         needed.            are in conformance with the Republic’s
                                            5-year economic plans.

     A.2 and A.3     ’ Resolved; not        No further response to the Office of
                         implemented.       Inspector General is required. The
                                            recommendations will be referred to the
                                            Assistant Secretary for Policy,
                                            Management and Budget for tracking of
                                            implementation. However, we request
                                            that copies of the Cabinet’s responses to
                                            the Bank’s requests be provided to our
                                            office.

         A.4             Implemented.       No further action is required.

         B.l             Resolved; not      No further response to the Office of
                         implemented.       Inspector General is required. The
                                            recommendation will be referred to the
                                            Assistant Secretary for Policy,
                                            Management and Budget for tracking of
                                            implementation. However, we request
                                            that a sample copy of the revised loan
                                            documents be nrovided to our office




                                       33
                                                                             APPENDIX 4
                                                                               Page 2 of 2

Finding/Recommendation
       Reference            Status                       Action Reauired

         B.2             Management         Provide the target date and the title of the
                         concurs;           official responsible for amending the
                         additional         Bank’s Policies and Guidelines to require
                         information        supervisory reviews of files on delinquent
                         needed.            loans. However, we request that a copy of
                                            the revised Policies and Guidelines be
                                            provided to our office.

         B.3             Resolved; not      No further response to the Office of
                         implemented.       Inspector General is required. The
                                            recommendation will be referred to the
                                            Assistant Secretary for Policy,
                                            Management and Budget for tracking of
                                            implementation. However, a copy of the
                                            documentation showing when a property
                                            manager has been assigned should be
                                            provided to our office.

     B.4 and B.5         Implemented.       No further action is required.

     C.l and C.2         Unresolved.        Reconsider the recommendations, and
                                            provide responses indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide action plans that
                                            include target dates and titles of the
                                            officials responsible for (1) establishing a
                                            separate revolving fund for former Trust
                                            Territories loans and (2) depositing into
                                            the fund all loan payments and the two
                                            loan transfers made since 1988 and all
                                            future loan payments.




                                       34
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:


                    Internet Complaint Form Address

                   http://www.oig.doi.gov/hotline_form.html

Sending written documents to:                          Calling:


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N. W.                                   l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-000 1
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                  North Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
North Pacific Region
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 969 11
$                                      IL
m                                     a-



    U.S. Department of the Interior
    Office of Inspector General
    1849 C Street, NW
    Mail Stop 534 l- MIB
    Washington, D.C. 20240-000 1

    Toll Free Number
          l-800-424-508 1

    FTYCommercial Numbers
        (202) 208-5300
        TDD (202) 208-2420
